TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Surveys of Taxpayers With Tax Account
                      Issues Indicate They Are Satisfied
                      With the Service They Received at
                         Taxpayer Assistance Centers



                                         August 17, 2010

                              Reference Number: 2010-40-100




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  HIGHLIGHTS


SURVEYS OF TAXPAYERS WITH TAX                            •   Traveled farther to get to Taxpayer
ACCOUNT ISSUES INDICATE THEY ARE                             Assistance Centers.
SATISFIED WITH THE SERVICE THEY                          •   Perceived a lack of genuine concern
RECEIVED AT TAXPAYER ASSISTANCE                              and knowledge on the part of the
CENTERS                                                      assistor.
                                                     Still, most taxpayers who visited Taxpayer
                                                     Assistance Centers for tax account issues have
Highlights                                           little or no desire to contact the IRS using other
                                                     methods, such as using a toll-free telephone
Final Report issued on August 17, 2010               service or secure Internet web sites.

Highlights of Reference Number: 2010-40-100          Approximately 1 million taxpayers each year visit
to the Internal Revenue Service Commissioner         Taxpayer Assistance Centers to make payments
for the Wage and Investment Division.                despite there being more convenient methods.
                                                     The other methods are also less expensive for
IMPACT ON TAXPAYERS                                  the IRS because the IRS estimates that it costs
                                                     approximately $29 per Taxpayer Assistance
One of the primary goals of the Internal             Center contact.
Revenue Service (IRS) is to improve customer
service to make voluntary compliance easier.         Taxpayers who visit Taxpayer Assistance
One method the IRS uses to provide customer          Centers for tax account issues have some
service and taxpayer assistance is by providing      common attributes. Typically, they are:
local IRS walk-in offices, called Taxpayer
Assistance Centers, which allow taxpayers to             •   Over the age of 50.
obtain assistance with tax matters.                      •   Have a lower than average income.
                                                         •   Less likely to file electronically or use a
WHY TIGTA DID THE AUDIT                                      paid preparer.
Taxpayer account services are a significant part     WHAT TIGTA RECOMMENDED
of the Taxpayer Assistance Center Program.
This audit evaluated the customer service IRS        The Commissioner, Wage and Investment
employees provided to taxpayers who visited          Division, should identify reasons certain
Taxpayer Assistance Centers for tax account          taxpayers prefer to make payments at Taxpayer
information.                                         Assistance Centers instead of using more
                                                     convenient methods and take appropriate
WHAT TIGTA FOUND                                     actions in an attempt to reduce the number of
                                                     taxpayers who visit Taxpayer Assistance
Taxpayers who visited Taxpayer Assistance            Centers to make payments.
Centers with tax account issues were satisfied
with the overall customer service they received      The IRS agreed with the recommendation and
during their visits. They generally believed they    plans to conduct a study to determine why
received prompt service and that assistors who       taxpayers prefer to make payments at Taxpayer
helped them were courteous, listened to their        Assistance Centers instead of using alternative
concerns, and had the knowledge to assist them       methods. Based on the results of the study, the
properly.                                            IRS plans to examine opportunities to influence
                                                     the behavior of taxpayers and determine the
A small percentage of taxpayers were                 feasibility of attempting to reduce the number of
dissatisfied. These taxpayers’ experiences           taxpayers who visit Taxpayer Assistance
differed from the average Taxpayer Assistance        Centers to make payments.
Center visitor in that they:
    •   Experienced longer wait times than
        average.
    •   Spent more time with assistors.
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 17, 2010


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Surveys of Taxpayers With Tax Account Issues
                             Indicate They Are Satisfied With the Service They Received at
                             Taxpayer Assistance Centers (Audit # 201040025)

 This report presents the results of our review to evaluate the customer service Internal Revenue
 Service employees provided to taxpayers who visited Taxpayer Assistance Centers for account
 information. This audit was included in our 2010 Annual Audit Plan and addresses the major
 management challenge of Providing Quality Taxpayer Service Operations.
 Management’s complete response to the draft report is included in Appendix VII.
 Copies of this report are also being sent to the Internal Revenue Service managers affected by the
 report recommendation. Please contact me at (202) 622-6510 if you have questions or
 Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and
 Account Services), at (202) 622-5916.
                                   Surveys of Taxpayers With Tax Account Issues
                                    Indicate They Are Satisfied With the Service
                                   They Received at Taxpayer Assistance Centers




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Taxpayers Who Visited Taxpayer Assistance Centers With
          Tax Account Issues Were Satisfied With the Overall Customer
          Service They Received .................................................................................Page 3
          The Internal Revenue Service Could Benefit From Determining
          Why Taxpayers Visit Taxpayer Assistance Centers
          to Make Payments.........................................................................................Page 11
                    Recommendation 1:........................................................Page 12

          Taxpayers Who Visit Taxpayer Assistance Centers for
          Tax Account Issues Have Some Common Attributes...................................Page 13

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 18
          Appendix II – Major Contributors to This Report ........................................Page 20
          Appendix III – Report Distribution List .......................................................Page 21
          Appendix IV – Cover Letter Sent to Taxpayers With the Questionnaire .....Page 22
          Appendix V – Questionnaire Sent to Taxpayers...........................................Page 24
          Appendix VI – Survey Results .....................................................................Page 26
          Appendix VII – Management’s Response to the Draft Report.....................Page 31
        Surveys of Taxpayers With Tax Account Issues
         Indicate They Are Satisfied With the Service
        They Received at Taxpayer Assistance Centers




                Abbreviations

CQRS      Centralized Quality Review System
IRS       Internal Revenue Service
TIGTA     Treasury Inspector General for Tax Administration
                                Surveys of Taxpayers With Tax Account Issues
                                 Indicate They Are Satisfied With the Service
                                They Received at Taxpayer Assistance Centers




                                            Background

One of the primary goals of the Internal Revenue Service (IRS) is to improve customer service to
make voluntary compliance easier. One method the IRS uses to provide customer service and
taxpayer assistance is by providing local IRS walk-in offices, called Taxpayer Assistance
Centers, which allow taxpayers to obtain assistance with tax matters. Taxpayer Assistance
Center employees, called assistors, help taxpayers resolve tax account inquiries, interpret tax
laws and regulations, prepare certain tax returns, and provide various other services designed to
minimize taxpayers’ burden when satisfying their tax obligations.
The IRS Field Assistance Office 1 has overall responsibility for 401 Taxpayer Assistance Centers
in 5 geographical areas throughout the United States. Figure 1 shows the volume of taxpayers
who visited Taxpayer Assistance Centers and the main reasons they did so for Fiscal Years 2007
through 2010.
                          Figure 1: Taxpayer Assistance Center Contacts for
                                       Fiscal Years 2007–2010
                                             (in millions)
                                      Fiscal Year        Fiscal Year        Fiscal Year        Fiscal Year
     Contacts/Product Lines
                                         2007               2008               2009               2010 2
     Accounts Contacts                    3.1                3.2                 3.2                3.5
     Forms Contacts                       1.3                1.0                 0.8                0.7
                      3
     Other Contacts                       1.4                1.5                 1.5                1.4
     Tax Law Contacts                     0.8                0.6                 0.3                0.3
     Tax Returns Prepared                 0.5                0.6                 0.4                0.4

     Totals                               7.1                6.9                 6.2                6.3
    Source: IRS management information reports.

The Field Assistance Office’s mission is to enhance the taxpayer experience by providing quality
face-to-face assistance and facilitate self-assisted services that resolve tax issues and educate the
taxpaying public. The Field Assistance Office currently uses the IRS’ Centralized Quality

1
  The Field Assistance Office is within the Wage and Investment Division Customer Assistance, Relationships, and
Education function.
2
  Fiscal Year 2010 contacts are Field Assistance Office’s projections.
3
  Examples of “Other Contacts” include assisting taxpayers with the U.S. Departing Alien Income Tax Statement
(Form 2063), date stamping tax returns brought in by taxpayers, and helping taxpayers with general information
such as addresses and directions to other IRS offices or other Federal Government agencies.
                                                                                                          Page 1
                          Surveys of Taxpayers With Tax Account Issues
                           Indicate They Are Satisfied With the Service
                          They Received at Taxpayer Assistance Centers



Review System (CQRS) to gauge its progress in meeting its goals and to measure quality. The
Taxpayer Assistance Centers record interactions between taxpayers and assistors (with
taxpayers’ permission) for quality assurance purposes using an automated Contact Recording
system that records the audio portion of a customer contact and synchronizes it with an
employee’s computer screen activity.
Quality reviewers review statistically valid samples of
contacts to objectively evaluate customer service,
analyze trends, identify opportunities for improvement,
and implement quality improvement measures. The IRS
believes the results from the reviews give statistically valid information—a true picture of
current quality levels.

Treasury Inspector General for Tax Administration (TIGTA) auditors conducted a
customer service survey of taxpayers
We identified 2,038 taxpayers who visited Taxpayer Assistance Centers from August 2009 to
April 2010 with a tax account issue. Of those, we sent survey questionnaires to 1,543 and
received 345 responses (22.3 percent response rate).
We designed the survey to evaluate the level of customer service taxpayers received when they
visited Taxpayer Assistance Centers in an attempt to resolve their tax account issues. Of the
345 taxpayers who responded to our survey, 322 stated that they had recently visited a Taxpayer
Assistance Center with a tax account issue.
The survey included taxpayers who the IRS selected for its CQRS quality reviews. We
identified the taxpayers using the CQRS Document Collection Instrument and used the IRS’
addresses and telephone numbers of record to contact the taxpayers. See Appendices IV and V
for a copy of the cover letter and questionnaire sent to taxpayers. See Appendix VI for the
results of the survey.
This review was performed at the Field Assistance Office at the Wage and Investment Division
Headquarters in Atlanta, Georgia, during December 2009 through May 2010. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                               Page 2
                                Surveys of Taxpayers With Tax Account Issues
                                 Indicate They Are Satisfied With the Service
                                They Received at Taxpayer Assistance Centers




                                         Results of Review

Taxpayers Who Visited Taxpayer Assistance Centers With Tax
Account Issues Were Satisfied With the Overall Customer Service
They Received
Taxpayers who visited Taxpayer Assistance Centers with tax account issues were satisfied with
the overall customer service they received during their visits. They generally believed they
received prompt service and that assistors who helped them were courteous, listened to their
concerns, and had the knowledge to assist them properly.
                                     Figure 2: Overall Satisfaction 4
              Statement: Overall, I was satisfied with the customer service I received from the
                      IRS during my visit to the IRS walk-in office. (316 Responses) 5

                                    24
                     10    4                                                                Strongly Agree - 75%


         41
                                                                                           Somewhat Agree - 13%


                                                                                         Neither Agree or Disagree -
                                                                                                    3.2%


                                                                                          Somewhat Disagree - 1.3%


                                                                            237            Strongly Disagree - 7.6%




              Source: TIGTA survey results.

Figure 2 shows how taxpayers who visited a Taxpayer Assistance Center responded to our
survey when asked if they were satisfied with the overall customer service they received. 6 Of
316 taxpayers who responded to this question, 7 278 respondents (88 percent) were satisfied with
the overall customer service they received. Only 28 respondents (9 percent) were not satisfied.


4
  Due to rounding, the percentages in the legend of this and other figures may not total 100 percent.
5
  For 316 responses, at a 95 percent confidence level, the precision for a 50 percent error rate would be 5.5 percent.
The actual precision for individual response categories would be lower.
6
  These results come from Question 21 of the questionnaire. See Appendix VI for details.
7
  Not all respondents answered all survey questions.
                                                                                                                Page 3
                                Surveys of Taxpayers With Tax Account Issues
                                 Indicate They Are Satisfied With the Service
                                They Received at Taxpayer Assistance Centers



In addition, as shown in Figure 3, 278 (89 percent) of 313 respondents stated they would visit the
same Taxpayer Assistance Center again if they had a similar issue.
                                Figure 3: Taxpayers Would Return to
                                the Same Taxpayer Assistance Center
                     Statement: If I have a similar issue in the future, I will visit the same
                                 IRS walk-in office again. (313 Responses) 8

                                2      17
                         16                                                                Strongly Agree - 78.6%

           32
                                                                                          Somewhat Agree - 10.2%


                                                                                         Neither Agree or Disagree -
                                                                                                    5.1%


                                                                                          Somewhat Disagree - 0.6%



                                                                         246               Strongly Disagree - 5.4%




                Source: TIGTA survey results.

IRS surveys of taxpayers who visited a Taxpayer Assistance Center for any reason 9 show similar
results. Taxpayers who participated in the IRS Customer Service Surveys during Calendar
Years 2008 and 2009 rated their overall satisfaction, on average, at 4.62 on a scale from 1 to 5
(with 5 being the best possible score). The monthly scores for the past 2 years ranged from 4.52
to 4.67. Translating our results to the same scale, taxpayers who participated in our survey rated
their overall satisfaction at 4.47 and their likelihood of returning to the same Taxpayer
Assistance Center at 4.56.

Respondents believed they received prompt service and were generally satisfied
with the quality of service visits
Overall, taxpayers responding to our survey were satisfied with the amount of time they spent in
the Taxpayer Assistance Centers, including the amount of time they spent waiting for service
(wait time) and the amount of time they spent discussing their issue with an assistor (service
time).



8
  For 313 responses, at a 95 percent confidence level, the precision for a 50 percent error rate would be 5.5 percent.
The actual precision for individual response categories would be lower.
9
  Common reasons a taxpayer may visit an IRS Taxpayer Assistance Center include: to resolve tax account issues,
to ask tax law questions, or to obtain forms and publications.
                                                                                                                Page 4
                                Surveys of Taxpayers With Tax Account Issues
                                 Indicate They Are Satisfied With the Service
                                They Received at Taxpayer Assistance Centers



Respondents believed they experienced reasonable wait times.
Of 313 taxpayers responding to the survey question regarding wait time, 10 262 taxpayers
(84 percent) believed their wait time was reasonable, including 203 respondents (65 percent)
who strongly believed their wait time was reasonable. As shown in Figure 4, only
42 respondents (13 percent) believed their wait time was not reasonable.
                                    Figure 4: Reasonable Wait Time
                 Statement: The amount of time I waited in the IRS walk-in office before I
              received assistance with my tax account issue was reasonable. (313 Responses) 11

                                  26                                                        Strongly Agree - 64.9%
                    16
              9
                                                                                           Somewhat Agree - 18.8%


                                                                                          Neither Agree or Disagree -
                                                                                                     2.9%

      59
                                                                                          Somewhat Disagree - 5.1%
                                                                                 203
                                                                                           Strongly Disagree - 8.3%




               Source: TIGTA survey results.

Respondents believed they experienced reasonable service times.
Taxpayers who responded to our survey also believed assistors spent an appropriate amount of
time with them. Of 312 respondents to the question regarding service time, 12 285 (91 percent)
stated the IRS employee who assisted them with their tax account issue(s) spent an appropriate
amount of time with them (neither too short nor too long).
As shown in Figure 5, 244 respondents (78 percent) strongly agreed the assistors spent an
appropriate amount of time with them, and only 19 respondents (6 percent) disagreed.




10
   These results are from Question 11 of the questionnaire. See Appendix VI for details.
11
   For 313 responses, at a 95 percent confidence level, the precision for a 50 percent error rate would be 5.5 percent.
The actual precision for individual response categories would be lower.
12
   These results come from Question 15 of the questionnaire. See Appendix VI for details.
                                                                                                                 Page 5
                                Surveys of Taxpayers With Tax Account Issues
                                 Indicate They Are Satisfied With the Service
                                They Received at Taxpayer Assistance Centers



                             Figure 5: Appropriate Time With Assistor
            Statement: The IRS employee who assisted me with my tax account issue spent an
          appropriate amount of time with me (neither too short nor too long). (312 Responses) 13

                            8     10       9
                                                                                           Strongly Agree - 78.2%
             41
                                                                                          Somewhat Agree - 13.1%


                                                                                         Neither Agree or Disagree -
                                                                                                    2.6%


                                                                                         Somewhat Disagree - 3.2%


                                                                         244              Strongly Disagree - 2.9%




              Source: TIGTA survey results.

IRS surveys of taxpayers who visited a Taxpayer Assistance Center for any reason show results
similar to our survey. Taxpayers who participated in the IRS Customer Service Surveys over the
past 2 calendar years rated the IRS’ promptness of service at 4.38. The monthly scores for the
past 2 years range from 4.19 to 4.48. Translating our results to the same scale, taxpayers who
participated in our survey rated their satisfaction with their wait time at 4.27 and their
satisfaction with their service time at 4.61.
In addition, taxpayers were also satisfied with the ease with which they found the IRS walk-in
offices, the ease with which they were able to determine what they needed to do to receive
assistance once they arrived, and the atmosphere in the offices that provided a private contact
with an IRS assistor. See Appendix VI for detailed results.

Respondents believed Taxpayer Assistance Center employees were
knowledgeable, professional, and courteous
Respondents were very satisfied with the quality of service they received from the Taxpayer
Assistance Center assistors. As shown in Figure 6, taxpayers overwhelmingly agreed that
assistors showed a genuine concern for them and their problems, had the knowledge to assist
them, and spent an appropriate amount of time with them.




13
  For 312 responses, at a 95 percent confidence level, the precision for a 50 percent error rate would be 5.5 percent.
The actual precision for individual response categories would be lower.
                                                                                                                Page 6
                                Surveys of Taxpayers With Tax Account Issues
                                 Indicate They Are Satisfied With the Service
                                They Received at Taxpayer Assistance Centers



                            Figure 6: Assistors’ Quality of Service

                                                                 Neither
 The IRS employee who assisted            Strongly   Somewhat               Somewhat      Strongly
                                                                Agree or
 me with my tax account issue …            Agree       Agree                 Disagree     Disagree
                                                                Disagree

 … showed a genuine concern for me
 and my issue when trying to assist         233         42          6           8           22
 me. (Question 13)
 … had adequate knowledge to assist
                                            236         39         13           6           20
 me with my issue. (Question 14)
 … spent an appropriate amount of
 time with me (neither too short nor        244         41          8           10           9
 too long). (Question 15)
Source: TIGTA survey results.

These results are comparable to the results of similar questions on the IRS Customer Satisfaction
Survey. For the three questions above, our respondents rated their experiences, on average, at
4.47 (Question 13), 4.48 (Question 14), and 4.61 (Question 15), whereas the IRS results showed
a customer rating of 4.73 for courtesy and professionalism and 4.72 for knowledge.
In addition to the survey, we reviewed contact recordings for 25 contacts to determine if our
assessment of the contact was similar to the respondents’ assessments. Our review verified that
assistors were concerned with taxpayer issues, had the knowledge to assist taxpayers, and spent
an appropriate amount of time with them.

Respondents who were not satisfied with the customer service they received
were in the Taxpayer Assistance Centers longer and traveled farther to get there
While most survey respondents were satisfied with the customer service they received, a small
percentage of them were dissatisfied. Respondents who were not satisfied with the customer
service they received at Taxpayer Assistance Centers reported they:
    •   Experienced longer wait times than average.
    •   Spent more time with assistors than average.
    •   Traveled farther to get to the Taxpayer Assistance Centers than average.
    •   Perceived a lack of genuine concern and knowledge on the part of the assistor.
Our survey did not allow us to identify a cause for this trend, nor did we identify any
commonalities in these visits other than those subsequently discussed.
The amount of time a respondent had to wait to receive assistance appears to be a factor in
determining his or her overall satisfaction with the Taxpayer Assistance Center experience.

                                                                                             Page 7
                                                               Surveys of Taxpayers With Tax Account Issues
                                                                Indicate They Are Satisfied With the Service
                                                               They Received at Taxpayer Assistance Centers



Survey respondents reported an average wait time of 27.59 minutes; however, as shown in
Figure 7, dissatisfied respondents reported an average wait time of almost 70 minutes.
                                         Figure 7: Average Wait Time for Respondents by Level of Satisfaction 14
                                            Statement: Overall, I was satisfied with the customer service I received from the IRS
                                                        during my visit to the IRS walk-in office. (254 Responses)

                                          80.00
        Average Wait Time (in Minutes)




                                          70.00
                                                                                                                  69.47
                                          60.00
                                          50.00
                                          40.00
                                          30.00                             35.23       38.13
                                                                                                    29.50
                                          20.00
                                                               22.23
                                          10.00
                                            -
                                                                                 Neither Agree or    Somewhat
                                           Strongly Agree -   Somewhat Agree -                                       Strongly Disagree -
                                                                                    Disagree -       Disagree -
                                           194 Responses        31 Responses                                            17 Responses
                                                                                  8 Responses       4 Responses

                                          Source: TIGTA survey result.




14
     Testing showed statistical significance at the .01 level of significance (p-value = .0009).
                                                                                                                                           Page 8
                                                                Surveys of Taxpayers With Tax Account Issues
                                                                 Indicate They Are Satisfied With the Service
                                                                They Received at Taxpayer Assistance Centers



Respondents also reported that they spent more time with assistors when they tried to resolve
their tax issue. The average taxpayer reported spending approximately 18 minutes with an
assistor when trying to resolve his or her tax account issue; however, respondents who were
dissatisfied reported they spent, on average, more than 32 minutes with assistors. See Figure 8
for the average reported time respondents spent with assistors by level of satisfaction.
                                                   Figure 8: Average Time Respondents Spent With Assistors
                                                                   by Level of Satisfaction 15
                                             Statement: Overall, I was satisfied with the customer service I received from the IRS
                                                         during my visit to the IRS walk-in office. (251 Responses)

                                           35.00
       Average Service Time (in Minutes)




                                           30.00                                                                     32.12
                                           25.00                                                       28.75

                                           20.00
                                           15.00                17.96
                                                                                          15.25
                                           10.00                             13.30

                                            5.00
                                             -
                                                                                  Neither Agree or
                                            Strongly Agree -   Somewhat Agree -                      Somewhat Disagree -   Strongly Disagree -
                                                                                     Disagree -
                                            189 Responses        33 Responses                           4 Responses           17 Responses
                                                                                   8 Responses

     Source: TIGTA survey results.




15
     Testing showed statistical significance at the .05 level of significance (p-value = .0208).
                                                                                                                                                 Page 9
                                                                   Surveys of Taxpayers With Tax Account Issues
                                                                    Indicate They Are Satisfied With the Service
                                                                   They Received at Taxpayer Assistance Centers



In addition, respondents who were dissatisfied with the customer service they received may have
traveled farther than the average respondent did. The average distance to a Taxpayer Assistance
Center for respondents satisfied with customer service was reported to be approximately
14 miles. The average reported distance for respondents dissatisfied was more than 25.6 miles.
See Figure 9 for the distance respondents traveled to visit a Taxpayer Assistance Center.
                                              Figure 9: Average Distance for Respondents by Level of Satisfaction 16
                                                Statement: Overall, I was satisfied with the customer service I received from the IRS
                                                            during my visit to the IRS walk-in office. (249 Responses)

                                              30.00
       Average Distance Traveled (in Miles)




                                              25.00
                                                                                                                        25.65
                                              20.00
                                                                                                          20.50
                                              15.00
                                                                   14.33        13.83        14.88
                                              10.00

                                               5.00

                                                -
                                                                                     Neither Agree or
                                               Strongly Agree -   Somewhat Agree -                      Somewhat D isagree -   Strongly Disagree -
                                                                                        Disagree -
                                               187 R esponses       33 Responses                           4 Responses            17 Responses
                                                                                      8 R esponses

       Source: TIGTA survey results.

In addition, more than 60 percent of taxpayers who responded that they were dissatisfied with the
customer service they received did not believe assistors were genuinely concerned with their
issue and did not have the knowledge to assist them.

Respondents who visited Taxpayer Assistance Centers do not wish to use
alternative methods to resolve their tax account issues
According to the 2008 and 2009 IRS Oversight Board Reports, more taxpayers consider a
toll-free telephone number or secure Internet site more important in helping them resolve their
tax issues than Taxpayer Assistance Centers. However, the results of our survey show that
taxpayers who visit Taxpayer Assistance Centers for tax account issues have little or no desire to
contact the IRS using other methods.
A total of 143 respondents stated that their Taxpayer Assistance Center visit was not their first
attempt to resolve their tax account issue. Most respondents were aware of other IRS services


16
     Testing showed statistical significance at the .10 level of significance (p-value = .0995).
                                                                                                                                                     Page 10
                                Surveys of Taxpayers With Tax Account Issues
                                 Indicate They Are Satisfied With the Service
                                They Received at Taxpayer Assistance Centers



(79 percent), but many preferred to try to resolve their tax account issue in person. See Figure 10
for taxpayer preferences based on our survey results.
                            Figure 10: Taxpayer Service Preferences 17

                                                                              Neither
                                                Strongly     Somewhat                      Somewhat       Strongly
 Question                                        Agree         Agree
                                                                             Agree or
                                                                                            Disagree      Disagree
                                                                             Disagree

 Before visiting the IRS walk-in office,
 I was aware of other services the IRS
 provides (e.g.: telephone or Internet            183             56            25             12             28
 services) that could help me resolve
 my tax issues.
 Compared to visiting the IRS walk-in
 office, I would rather, if possible, try
                                                   55             33            47             33            139
 to resolve my tax account issues via
 a toll-free telephone call.
 Compared to visiting the IRS walk-in
 office, I would rather, if possible, try
                                                   42             40            42             36            146
 to resolve my tax account issues via
 a secure Internet site.
Source: TIGTA survey results.

As shown in Figure 10, despite generally being aware of other options, more than 56 percent of
respondents indicated they would prefer not to try to solve their tax account issues via a toll-free
telephone call and 59 percent indicated they would prefer not to try to solve their tax account
issues via a secure Internet site. Instead, they would rather visit the Taxpayer Assistance Center
to try to resolve their issues—even if their issue is to make only a payment.

The Internal Revenue Service Could Benefit From Determining Why
Taxpayers Visit Taxpayer Assistance Centers to Make Payments
Approximately 30 percent of taxpayers who responded to the survey visited Taxpayer Assistance
Centers to make payments. The IRS reports that approximately 1 million taxpayers each year
visit the Taxpayer Assistance Centers to make payments. Yet the IRS provides taxpayers with
more convenient methods to make payments, such as through its Electronic Federal Tax Payment
System, 18 by credit card, or by mailing payments to the IRS. Using one of these methods may be


17
   Responses that indicated the taxpayer did not remember or did not feel the question was applicable to their visit
are not included in this table.
18
   The Electronic Federal Tax Payment System is a tax payment system provided free by the Department of the
Treasury. Businesses and individuals can pay all their Federal taxes using the Electronic Federal Tax Payment
System. Both businesses and individuals can schedule payments in advance.
                                                                                                             Page 11
                              Surveys of Taxpayers With Tax Account Issues
                               Indicate They Are Satisfied With the Service
                              They Received at Taxpayer Assistance Centers



more convenient for taxpayers, but may also be less expensive for both the taxpayer and the IRS.
The IRS estimates that it costs approximately $29 per Taxpayer Assistance Center contact. 19
There are various reasons why taxpayers choose to make payments at a Taxpayer Assistance
Center. For example, they may not have a bank account and need to make payments in cash, or
they may want a receipt showing they made a payment.
In November 2009, the Taxpayer Advocacy Panel issued a report 20 on how to improve the
payment process in the Taxpayer Assistance Centers. 21 The report made a number of
recommendations, including changing forms and adding drop boxes. The report did not address
the reasons taxpayers visit Taxpayer Assistance Centers to make payments.
The IRS could benefit from identifying the reasons a large number of taxpayers regularly visit
Taxpayer Assistance Centers to make payments and alternative ways to educate and encourage
them to use payment methods other than in-person delivery. This would reduce repeat traffic,
wait time, and payment processing costs and time. It would also give assistors additional time to
assist taxpayers with more complex issues.

Recommendation
Recommendation 1: The Commissioner, Wage and Investment Division, should identify
reasons certain taxpayers prefer to make payments at Taxpayer Assistance Centers instead of
using more convenient methods and take appropriate actions in an attempt to reduce the number
of taxpayers who visit Taxpayer Assistance Centers to make payments.
        Management’s Response: The IRS agreed with the recommendation and will
        conduct a study to determine why taxpayers prefer to make payments at Taxpayer
        Assistance Centers instead of using alternative methods. Based on the results of the
        study, the IRS will examine opportunities to influence the behavior of taxpayers and
        determine the feasibility of attempting to reduce the number of taxpayers who visit
        Taxpayer Assistance Centers to make payments.




19
   The 2007 Taxpayer Assistance Blueprint – Phase 2 (dated April 2007).
20
   The Taxpayer Assistance Center Committee Report on Improving the Payment Process in the TACs (dated
November 2009).
21
   The Taxpayer Advocacy Panel was established in October 2002 under the Federal Advisory Committee Act as a
way of improving IRS responsiveness to taxpayers needs. The panel offers a unique opportunity for citizens to
participate in the improvement of both the American tax administration system and the organization of the IRS.
                                                                                                       Page 12
                                         Surveys of Taxpayers With Tax Account Issues
                                          Indicate They Are Satisfied With the Service
                                         They Received at Taxpayer Assistance Centers



Taxpayers Who Visit Taxpayer Assistance Centers for Tax Account
Issues Have Some Common Attributes
The typical taxpayer who visits a Taxpayer Assistance Center for tax account issues is 51.5 years
old, files his or her tax return as Single or Head of Household, and earns $34,106 per year. 22 He
or she is far less likely to electronically file a tax return than the average taxpayer (54 percent
versus 67 percent of all taxpayers) and less likely to use a paid preparer than the average
taxpayer (45 percent versus 60 percent for all taxpayers).
Typically, taxpayers who visit Taxpayer Assistance Centers for account issues do so to make a
payment, get general information about their account, or get information regarding notices
received. They travel anywhere from 0 to 135 miles (averaging 15 miles) to get to the Taxpayer
Assistance Centers and have an average wait time of 28 minutes before receiving assistance.
Most taxpayers visiting Taxpayer Assistance Centers for tax account issues are over the
age of 50.
Taxpayers who visit Taxpayer Assistance Centers for tax account issues are most likely to be at
least 50 years old, and more than 45 percent of all taxpayers who visit Taxpayer Assistance
Centers with a tax account issue fall between the ages of 50 and 69. Figure 11 shows the ages of
respondents who visited Taxpayer Assistance Centers for tax account issues.
                     Figure 11: Ages of Taxpayers Who Visited Taxpayer Assistance Centers
                            for Tax Account Issues and Their Customer Service Level
                             80                                                                     5.00
                                                  4.50         4.54                        4.54
     Number of Respondents




                                  4.15   4.48


                                                                                                           Customer Satsifaction
                             70                                                                     4.50
                                                               69            4.61
                             60                                                                     4.00
                             50                                                                     3.50
                                                                                                                  Level

                             40                    48                        49                     3.00
                                          42
                             30                                                                     2.50
                             20                                                                26   2.00
                             10   20                                                                1.50
                              0                                                                     1.00
                                  <29    30-39    40-49       50-59         60-69          70+
                                                     Age Ranges
         Source: TIGTA survey results and Individual Master File Return Transaction File. 23

Survey responses indicate that taxpayers age of 50 or older who visited Taxpayer Assistance
Centers for tax account issues were typically aware of alternative methods with which they may

22
  The average income is $50,383.
23
  The Individual Return Transaction File contains data transcribed from U.S. Individual Income Tax Returns
(Forms 1040, 1040A, and 1040EZ) and accompanying forms and schedules.
                                                                                                             Page 13
                                                   Surveys of Taxpayers With Tax Account Issues
                                                    Indicate They Are Satisfied With the Service
                                                   They Received at Taxpayer Assistance Centers



be able to handle their tax account issues, but prefer to handle them at Taxpayer Assistance
Centers. In general, these taxpayers were just as satisfied with the service they received at
Taxpayer Assistance Centers as younger taxpayers. In fact, no particular age group showed a
significant difference in satisfaction levels.
Taxpayers visiting Taxpayer Assistance Centers for tax account issues typically have a
lower income than the national median income.
The median total income of a respondent was approximately $34,100. The national median
household income in the United States is approximately $52,000. 24 However, more than one-
half of the respondents had a household income of less than $40,000, and only 33 percent of
taxpayers visiting Taxpayer Assistance Centers had an income equal to or higher than the
national median income. Figure 12 shows the wages of respondents who visited Taxpayer
Assistance Centers for tax account issues.
                                    Figure 12: Wages of Taxpayers Who Visited Taxpayer Assistance
                                    Centers for Tax Account Issues and Their Customer Service Level
      Number of Respondents




                              120                                                                                  5.00




                                                                                                                          Customer Satisfaction
                                       4.32                             4.44                  4.50
                              100                                                                                  4.50
                                                            4.69                   4.56                  4.73
                                                 4.54                                                              4.00
                              80                                                                                   3.50
                                       79




                                                                                                                                 Level
                              60                                                                                   3.00
                              40                  54                                                               2.50
                                                             35         34                                         2.00
                              20                                                    9                     30       1.50
                                                                                              20
                               0                                                                                   1.00
                                     <$20,000   $20,000-   $35,000-   $50,000-   $65,000-   $80,000-   $100,000+
                                                $34,999    $49,999    $64,999    $79,999    $99,999
                                                                   Income Ranges

              Source: TIGTA survey results and Individual Master File Return Transaction File.

Despite the vast difference in household income for taxpayers who visited Taxpayer Assistance
Centers with a tax account issue, there was little difference in how customer service at the
Taxpayer Assistance Centers was perceived. Respondents of all income levels were satisfied
with the customer service they received.
Similarly, taxpayers’ filing statuses did not affect their customer satisfaction. There were no
significant differences in taxpayers’ satisfaction with the Taxpayer Assistance Centers based on
filing status. Figure 13 shows the filing status of taxpayers who visited Taxpayer Assistance
Centers for tax account issues.


24
     Based on 2008 Income Statistics from the United States Census Bureau.
                                                                                                                          Page 14
                                                 Surveys of Taxpayers With Tax Account Issues
                                                  Indicate They Are Satisfied With the Service
                                                 They Received at Taxpayer Assistance Centers



 Figure 13: Filing Status of Taxpayers Who Visited Taxpayer Assistance Centers
            for Tax Account Issues and Their Customer Service Level

                                       4.50                                           4.83
   Number of Respondents




                           120                                                                         4.58         5.00




                                                                                                                           Customer Satisfaction
                                                             4.42                                                   4.50
                           100
                                                                                                                    4.00
                           80          109                    97
                                                                                                                    3.50




                                                                                                                                  Level
                           60                                                                                       3.00
                           40                                                                                       2.50
                                                                                                        43          2.00
                           20                                                         12                            1.50
                            0                                                                                       1.00
                                      Single         Married Filing Jointly    Married Filing   Head of Household
                                                                                Separately
                                                                    Filing Statuses

                           Source: TIGTA survey results and Individual Master File Return Transaction File.

Our survey also determined taxpayers who visit Taxpayer Assistance Centers with tax account
issues were less likely to file electronic returns or use a paid preparer. They are more inclined to
file a paper return (54 percent) than the national average (33 percent) and were more inclined to
prepare the return without using a paid preparer (55 percent) than the national average
(40 percent). Figures 14 and 15 show the percentage of respondents who visited a Taxpayer
Assistance Center for tax account issues who filed electronically and used a preparer.




                                                                                                                           Page 15
              Surveys of Taxpayers With Tax Account Issues
               Indicate They Are Satisfied With the Service
              They Received at Taxpayer Assistance Centers



Figure 14: Electronic and Paper Filing by Taxpayers Who Visit
    Taxpayer Assistance Centers for Tax Account Issues

 80%
 70%
 60%
                                                                  67%
 50%
 40%             54%
                                                       46%
 30%
 20%                        33%

 10%
  0%
                 Paper Return                         e-Filed Return

              Respondents Who Visited Taxpayer Assistance Centers

              All Taxpayers

 Source: TIGTA survey results and Individual Master File Return Transaction File.
 e-Filed = electronically filed.




                                                                                    Page 16
                 Surveys of Taxpayers With Tax Account Issues
                  Indicate They Are Satisfied With the Service
                 They Received at Taxpayer Assistance Centers



   Figure 15: Use of Paid Preparers by Taxpayers Who Visit
     Taxpayer Assistance Centers for Tax Account Issues

 70%

 60%

 50%                          60%
                                                         55%
 40%
                   45%
 30%                                                                40%
 20%

 10%

   0%
                  Paid Preparer                       No Paid Preparer

                Respondents Who Visited Taxpayer Assistance Centers

                All Taxpayers

Source: TIGTA survey results and Individual Master File Return Transaction File.




                                                                                   Page 17
                              Surveys of Taxpayers With Tax Account Issues
                               Indicate They Are Satisfied With the Service
                              They Received at Taxpayer Assistance Centers



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the customer service IRS employees provided to taxpayers
who visited Taxpayer Assistance Centers for account information. To accomplish this objective,
we:
I.      Identified the trends associated with customer satisfaction levels and customer needs.
        A. Reviewed taxpayer surveys and results completed by the external stakeholders.
        B. Reviewed the Field Assistance Office 1 customer satisfaction survey results.
        C. Evaluated how the Field Assistance Office has used survey results to improve the
           quality of service provided in the centers.
II.     Evaluated the satisfaction of customers who visited Taxpayer Assistance Centers by
        conducting a survey of taxpayers during the period January through April 2010.
        A. Identified 2,038 taxpayers who visited Taxpayer Assistance Centers from
           August 2009 to April 2010 with a tax account issue. We sent survey questionnaires
           to the 1,543 with a valid address on the Individual Master File. 2 We obtained
           345 survey responses. We identified the taxpayers by completing the following:
             1. Identified taxpayers who visited a Taxpayer Assistance Center for assistance with
                an account issue from August 10, 2009, to January 29, 2010, by obtaining the
                CQRS Data Collection Instrument used by reviewers to document their review of
                the contact recording.
             2. On a periodic basis from January 29 to April 2, 2010, identified taxpayers who
                visited a Taxpayer Assistance Center for assistance with an account issue
                beginning with the first week after the 6-month period in II.A.1. by obtaining
                CQRS Data Collection Instrument updates.
             3. For taxpayers identified in II.A.1. and II.A.2., researched IRS’ Individual Master
                File Return Transaction File 3 and identified 1,543 taxpayers’ entity information,



1
  The Field Assistance Office is within the Wage and Investment Division Customer Assistance, Relationships, and
Education function.
2
  The IRS database that maintains transactions or records of individual tax accounts.
3
  The Individual Return Transaction File contains data transcribed from U.S. Individual Income Tax Returns (Forms
1040, 1040A, and 1040EZ) and accompanying forms and schedules.
                                                                                                        Page 18
                          Surveys of Taxpayers With Tax Account Issues
                           Indicate They Are Satisfied With the Service
                          They Received at Taxpayer Assistance Centers



              including name, address, and demographic information (e.g., income, filing
              status).
           4. Mailed 1,543 cover letters and surveys to taxpayers. Taxpayers responded to the
              survey via Internet (19 taxpayers), mail (214 taxpayers), or telephone
              (112 taxpayers).
           5. Obtained all available contact recordings from February 24 to April 9, 2010.
           6. For 25 contacts in which the taxpayer responded to our survey, we reviewed
              contact recordings from II.A.5. and determined if taxpayer responses are
              representative of actual events.
       B. Evaluated taxpayers’ experiences when visiting a Taxpayer Assistance Center for
          assistance with an account issue.
           1. Quantified the results after the completion of the 345 surveys.
           2. Stratified and compared data by various categories.
           3. Obtained demographic information for respondents from the Individual Master
              File Return Transaction File and stratified results by age, filing status, income
              level, and geographical areas.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. This audit did not include
reviewing any IRS processes or procedures, but focused on taxpayers. We only considered
internal controls if taxpayers’ responses to surveys identified any potential concerns or
fraudulent activities; they did not.




                                                                                          Page 19
                        Surveys of Taxpayers With Tax Account Issues
                         Indicate They Are Satisfied With the Service
                        They Received at Taxpayer Assistance Centers



                                                                             Appendix II

                 Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Augusta R. Cook, Director
Wilma Figueroa, Audit Manager
Frank Jones, Audit Manager
Kenneth Carlson, Lead Auditor
Tanya Adams, Senior Auditor
Roberta Fuller, Senior Auditor
Jerome Antoine, Auditor
Jack Forbus, Auditor
Andrea Hayes, Auditor
Nelva Usher, Auditor
Geraldine Vaughn, Auditor




                                                                                    Page 20
                        Surveys of Taxpayers With Tax Account Issues
                         Indicate They Are Satisfied With the Service
                        They Received at Taxpayer Assistance Centers



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Deputy Chief Information Officer for Strategy/Modernization OS:CTO
Deputy Commissioner, Wage and Investment Division SE:W
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Customer Assistance, Relationships, and Education, Wage and Investment Division
SE:W:CAR
Chief, Program Evaluation and Improvement, Wage and Investment Division SE:W:S:PRA:PEI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Chief, Program Evaluation and Improvement, Wage and Investment Division
SE:W:S:PRA:PEI




                                                                                  Page 21
   Surveys of Taxpayers With Tax Account Issues
    Indicate They Are Satisfied With the Service
   They Received at Taxpayer Assistance Centers



                                            Appendix IV

Cover Letter Sent to Taxpayers
   With the Questionnaire




                                                   Page 22
Surveys of Taxpayers With Tax Account Issues
 Indicate They Are Satisfied With the Service
They Received at Taxpayer Assistance Centers




                                                Page 23
   Surveys of Taxpayers With Tax Account Issues
    Indicate They Are Satisfied With the Service
   They Received at Taxpayer Assistance Centers



                                            Appendix V

Questionnaire Sent to Taxpayers




                                                   Page 24
Surveys of Taxpayers With Tax Account Issues
 Indicate They Are Satisfied With the Service
They Received at Taxpayer Assistance Centers




                                                Page 25
                                              Surveys of Taxpayers With Tax Account Issues
                                               Indicate They Are Satisfied With the Service
                                              They Received at Taxpayer Assistance Centers



                                                                                                      Appendix VI

                                                        Survey Results

We obtained the following selected results from our survey of taxpayers who visited Taxpayer
Assistance Centers with tax account issues. 1
The charts in this Appendix are designed to show positive and negative responses to each
question, with positive responses shown to the right of the center line and negative or neutral
responses shown to the left of the center line.
The score for each question and the total number of taxpayers who responded to the question (N)
is to the right of the question. For example, for question 8, taxpayers scored the IRS’ customer
service for this category as 4.25 and 317 taxpayers responded to the question.


     Question 8: My visit to the w alk-in
                                                  N = 317
     office w as a reasonable length of
                                                Score = 4.25
                    time.


                                      -100%     -80%    -60%     -40%   -20%   0%   20%   40%   60%     80%   100%



Questions 8 through 21 gave taxpayers the following options when presented with statements
regarding the IRS’ customer service.

         Definitely                         Somewhat           Neither Agree or     Somewhat           Definitely
         Disagree                            Disagree              Disagree           Agree             Agree
            (1)                                 (2)                   (3)              (4)                (5)




1
    Questions asked for verification or demographic purposes are not included in this Appendix.
                                                                                                              Page 26
                                            Surveys of Taxpayers With Tax Account Issues
                                             Indicate They Are Satisfied With the Service
                                            They Received at Taxpayer Assistance Centers



                                                          General Statements

Questions 8 through 12 asked taxpayers to rate general customer service issues they encountered
during their visit to a Taxpayer Assistance Center with a tax account issue.


  Question 8: My visit to the w alk-in
                                                   N = 317
  office w as a reasonable length of
                                                 Score = 4.25
                 time.


                                   -100%         -80%     -60%    -40%    -20%    0%   20%   40%   60%   80%   100%




  Question 9: It w as easy to find and              N = 324
    get to the IRS w alk-in office.               Score = 4.54


                                    -100%        -80%     -60%    -40%    -20%    0%   20%   40%   60%   80%   100%




   Question 10: When I arrived at the
   IRS w alk-in office, it w as easy to              N = 324
  determine w hat I needed to do to talk           Score = 4.50
          to an IRS employee.


                                         -100%    -80%     -60%    -40%    -20%   0%   20%   40%   60%   80%   100%




    Question 11: The amount of time I
     w aited in the IRS w alk-in office              N = 324
  before I received assistance w ith my            Score = 4.12
   tax account issue w as reasonable.


                                         -100%     -80%    -60%    -40%    -20%   0%   20%   40%   60%   80%   100%




   Question 12: While the IRS assistor
     helped me w ith my tax account                  N = 322
  issue, the conditions w ere adequate             Score = 4.17
      to provide adequate privacy.


                                         -100%    -80%     -60%    -40%    -20%   0%   20%   40%   60%   80%   100%




                                                                                                               Page 27
                                           Surveys of Taxpayers With Tax Account Issues
                                            Indicate They Are Satisfied With the Service
                                           They Received at Taxpayer Assistance Centers



                                                              Assistors

Questions 13, 14, and 15 asked taxpayers to rate their satisfaction with the courtesy, knowledge,
and professionalism of Taxpayer Assistance Center assistors.

   Question 13: The IRS employee w ho
    assisted me w ith my tax account
                                                 N = 324
  issue show ed a genuine concern for
                                               Score = 4.29
     me and my issue w hen trying to
                assist me.

                                     -100%    -80%    -60%     -40%   -20%   0%   20%   40%   60%   80%   100%




  Question 14: The IRS employee w ho
    assisted me w ith my tax account            N = 328
   issue had adequate know ledge to           Score = 4.29
        assist me w ith my issue.


                                    -100%     -80%    -60%     -40%   -20%   0%   20%   40%   60%   80%   100%




   Question 15: The IRS employee w ho
     assisted me w ith my tax account
                                                 N = 327
  issue spent an appropriate amount of
                                               Score = 4.39
    time w ith me (neither too short nor
                 too long).

                                     -100%    -80%    -60%     -40%   -20%   0%   20%   40%   60%   80%   100%




                                                             Survey Cards

Question 16 asked taxpayers to rate how easy it was to return Customer Service Survey cards
given to them at the Taxpayer Assistance Centers.

  Question 16: It w as easy to complete
     and return a customer service               N = 217
  survey card the IRS employee gave            Score = 4.17
    to me during our conversation.


                                     -100%    -80%    -60%     -40%   -20%   0%   20%   40%   60%   80%   100%




                                                                                                          Page 28
                                              Surveys of Taxpayers With Tax Account Issues
                                               Indicate They Are Satisfied With the Service
                                              They Received at Taxpayer Assistance Centers



                     Other Services Provided by the Internal Revenue Service

Questions 17, 18, and 19 asked taxpayers to rate their knowledge of other IRS services and their
likelihood to use them in the future.

   Question 17: Before visiting the IRS
  w alk-in office, I w as aw are of other          N = 321
     services the IRS provides (e.g.:
                                                 Score = 3.94
   telephone or Internet services) that
  could help me resolve my tax issues.

                                        -100%    -80%   -60%    -40%   -20%   0%   20%   40%   60%     80%    100%




  Question 18: Compared to visiting the
   IRS w alk-in office, I w ould rather, if
                                                                                                 N = 325
     possible, try to resolve my tax
      account issues via a toll-free                                                           Score = 2.32
              telephone call.

                                        -100%    -80%   -60%    -40%   -20%   0%   20%   40%   60%     80%    100%




  Question 19: Compared to visiting the
   IRS w alk-in office, I w ould rather, if
                                                                                                 N = 325
     possible, try to resolve my tax
  account issues via a secure Internet
                                                                                               Score = 2.20
                    site.

                                        -100%    -80%   -60%    -40%   -20%   0%   20%   40%   60%     80%    100%




                                                                                                              Page 29
                                              Surveys of Taxpayers With Tax Account Issues
                                               Indicate They Are Satisfied With the Service
                                              They Received at Taxpayer Assistance Centers



                                      Overall Satisfaction With Customer Service

Questions 20 and 21 asked taxpayers to rate their overall satisfaction with the customer service
they received when visiting a Taxpayer Assistance Center with a tax account issue.


  Question 20: If I have a similar issue           N = 333
  in the future, I w ill visit the same IRS
                                                 Score = 4.29
           w alk-in office again.



                                        -100%    -80%   -60%     -40%   -20%   0%   20%   40%   60%   80%   100%




   Question 21: Overall, I w as satisfied
   w ith the customer service I received            N = 337
  from the IRS during my visit to the IRS         Score = 4.19
               w alk-in office.


                                         -100%   -80%    -60%    -40%   -20%   0%   20%   40%   60%   80%   100%




                                                                                                            Page 30
         Surveys of Taxpayers With Tax Account Issues
          Indicate They Are Satisfied With the Service
         They Received at Taxpayer Assistance Centers



                                                 Appendix VII

Management’s Response to the Draft Report




                                                         Page 31
Surveys of Taxpayers With Tax Account Issues
 Indicate They Are Satisfied With the Service
They Received at Taxpayer Assistance Centers




                                                Page 32
